September 4, 2020
BY FEDERAL EXPRESS
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Supreme Court Building
1 First Street, N.E.
Washington, D.C. 20543
Re:

DAVID BLASZCZAK v. UNITED STATES OF AMERICA
21-

Dear Mr. Harris:
Enclosed are ten copies each of a petition for a writ of certiorari and an
attached appendix on behalf of David Blaszczak, an application for leave to
proceed in forma pauperis, and a certificate of service.
One copy of the petition and appendix and one of the application for in
forma pauperis relief have been served by federal express mail on the Office of the
Solicitor General of the United States.
Respectfully yours,

Colleen P. Cassidy

COLLEEN P. CASSIDY
Assistant Federal Defender
CPC/gv
Enclosures
cc: Honorable Jeffrey B. Wall
Acting Solicitor General of the United States
Department of Justice
950 Pennsylvania Avenue, N.W., Room 5614
Washington, D.C. 20530-0001

